TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Some Taxpayers Were Not Appropriately
                  Notified When Their Personally Identifiable
                   Information Was Inadvertently Disclosed



                                           May 24, 2011

                              Reference Number: 2011-40-054




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


SOME TAXPAYERS WERE NOT                                    the disclosures because only tax account
APPROPRIATELY NOTIFIED WHEN                                information was disclosed and IRS
THEIR PERSONALLY IDENTIFIABLE                              procedures did not include tax account
INFORMATION WAS INADVERTENTLY                              information in its definition of Personally
                                                           Identifiable Information.
DISCLOSED
                                                       •   20 (74 percent) of the 27 incidents in the
                                                           98 incidents sampled that required taxpayer
Highlights                                                 notification were not sent timely. TIGTA
                                                           considered notifications timely if taxpayers
Final Report issued on May 24, 2011                        were sent notifications within 45 days of the
                                                           date the incident was reported to or
Highlights of Reference Number: 2011-40-054                identified by the IRS. The notification letters
to the Internal Revenue Service Deputy                     in the sample averaged 86 days.
Commissioner for Operations Support.
                                                       In addition, TIGTA reconciliations performed
IMPACT ON TAXPAYERS                                    on the four systems the IRS uses to capture
                                                       disclosure incident-related information
Taxpayers need to be assured that the Internal         identified 815 missing incidents.
Revenue Service (IRS) will promptly notify them
of inadvertent disclosures of their Personally         WHAT TIGTA RECOMMENDED
Identifiable Information so they can take the
necessary steps to protect themselves from             TIGTA recommended that the IRS 1) educate
identity theft or other harm. The IRS has many         employees on the importance of obtaining
processes and regulations that protect taxpayer        sufficient information on individuals whose
information, but there are times when taxpayer         Personally Identifiable Information was
information is inadvertently disclosed.                disclosed, 2) revise procedures to include tax
                                                       account information in the Personally Identifiable
WHY TIGTA DID THE AUDIT                                Information definition and to forward disclosure
                                                       incidents to the IRS’s Identity Theft Program for
More than 142 million taxpayers entrust the IRS        victims of identity theft, 3) implement a
with sensitive financial and personal data. The        timeliness measure, and 4) implement sufficient
objective of this audit was to determine whether       controls to ensure that all incidents are
the IRS is making appropriate decisions to             accurately documented and considered.
promptly and properly notify taxpayers of
inadvertent disclosures of their tax information.      In the response to the report, the IRS agreed to
                                                       the recommendations. The IRS has
WHAT TIGTA FOUND                                       implemented a protection campaign to educate
                                                       employees on data protection and plans to study
TIGTA reviewed a statistical sample of 98 case
                                                       whether tax account information should be
files of incidents reported as inadvertent
                                                       included in the definition of Personally
disclosures in Fiscal Years 2009 and 2010 and
                                                       Identifiable Information. In addition, the IRS
found not all taxpayers were properly and/or
                                                       plans to strengthen procedures to address
timely notified of disclosures.
                                                       identity theft and expand current time metrics to
•   Five (5 percent) of 98 incidents were closed       include the elapsed time between initial incident
    and taxpayers were not properly notified of        reporting and taxpayer notifications date. It
    the disclosures because IRS employees              plans to consolidate all systems data for the
    reporting the disclosures did not document         most serious incidents.
    the identity of the individuals whose
    Personally Identifiable Information had been
    disclosed.
•   10 (10 percent) of 98 incidents were closed
    and taxpayers were not properly notified of
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 24, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Some Taxpayers Were Not Appropriately
                             Notified When Their Personally Identifiable Information Was
                             Inadvertently Disclosed (Audit # 201040050)

 This report presents the results of our review to determine whether the Internal Revenue Service
 is making appropriate decisions to promptly and properly notify taxpayers of inadvertent
 disclosures of their tax information. This audit is included in our Fiscal Year 2011 Annual Audit
 Plan and addresses the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                                 Some Taxpayers Were Not Appropriately Notified
                                When Their Personally Identifiable Information Was
                                            Inadvertently Disclosed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          The Disclosure Notification Process Needs Improvement
          to Ensure Taxpayers Are Appropriately Notified
          of Inadvertent Disclosures ............................................................................ Page 6
                    Recommendations 1 and 2: .............................................. Page 16

                    Recommendation 3:........................................................ Page 17

          Multiple Information Systems and Manual Processes Increase
          the Risk That Not All Incidents Are Considered and Controlled ................. Page 17
                    Recommendation 4:........................................................ Page 21


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 25
          Appendix III – Report Distribution List ....................................................... Page 26
          Appendix IV – Outcome Measures............................................................... Page 27
          Appendix V – Internal Revenue Service Employee Instructions
          on Reporting Inadvertent Disclosures ........................................................... Page 29
          Appendix VI – Flowchart of the Disclosure Notification Process ............... Page 30
          Appendix VII – Management’s Response to the Draft Report ..................... Page 31
         Some Taxpayers Were Not Appropriately Notified
        When Their Personally Identifiable Information Was
                    Inadvertently Disclosed




                  Abbreviations

CSIRC       Computer Security Incident Response Center
IRS         Internal Revenue Service
OMB         Office of Management and Budget
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed




                                       Background

Identity theft is the number one consumer complaint nationwide. Identity theft occurs when
someone uses Personally Identifiable Information, such as an individual’s name or Social
                                               Security Number, credit card numbers, or other
  Personally Identifiable Information          account information, to commit fraud and other
  includes an individual’s:
                                               crimes. Another person’s Social Security
  • Name.
  • Address.                                   Number is the most valuable tool an identity
  • E-mail Address.                            thief can obtain to commit financial fraud, and
  • Social Security Number.                    the Social Security Number becomes even more
  • Telephone Number.                          valuable if it is linked to other personal data of
  • Bank Account Number.                       the Social Security Number owner, such as
  • Date and Place of Birth.                   information required to prepare a tax return.
  • Mother’s Maiden Name.                      While the overall number of identity theft
  • Biometric Data (e.g., height, weight, eye
      color, finger prints).
                                               complaints dropped from Calendar Year 2009 to
                                               Calendar Year 2010, identity theft remains the
                                               single largest type of complaint submitted to the
Federal Trade Commission’s Consumer Sentinel Network with more than 1.3 million complaints
received since Calendar Year 2006.
More than 142 million taxpayers entrust the Internal Revenue Service (IRS) with sensitive
financial and personal data. The IRS has many processes and regulations that protect taxpayer
information, but there are times where taxpayer information is inadvertently disclosed. For
example, an employee could inadvertently include Jane Smith’s tax return in an envelope with
Mary Smith’s tax return and send it to Mary–thus inadvertently disclosing Jane’s Personally
Identifiable Information to Mary. Alternatively, at the taxpayer’s request, the IRS could fax a
copy of the taxpayer’s tax return but use an incorrect fax number. When inadvertent disclosures
happen and the risk of identity theft or other harm is likely, taxpayers need to be assured that the
IRS will promptly notify them so they can take the necessary steps to protect themselves from
identity theft or other harm.

Laws and regulations
Various laws require that Federal Government agencies protect Personally Identifiable
Information and implement programs to provide security for Personally Identifiable Information
and the systems on which it resides. In addition, the Internal Revenue Code prohibits the
unauthorized disclosure of taxpayer information. Figure 1 provides a list of the various laws and
regulations on disclosure of Personally Identifiable Information and/or taxpayer information.


                                                                                              Page 1
                                     Some Taxpayers Were Not Appropriately Notified
                                    When Their Personally Identifiable Information Was
                                                Inadvertently Disclosed



        Figure 1: Laws and Regulations Regarding Disclosure of Taxpayer Information
         Privacy Act of 19741            With specifically mentioned exceptions, no agency shall disclose any
                                         record which is contained in a system of records,2 except pursuant to
                                         a written request by, or with the prior written consent of, the
                                         individual to whom the record pertains.
                                         Agencies with systems of records (e.g., taxpayer information) must
                                         establish appropriate administrative, technical, and physical
                                         safeguards to ensure the information contained in the records
                                         remains secure and confidential. This includes protecting the
                                         information against threats or hazards which could result in
                                         substantial harm, embarrassment, inconvenience, or unfairness to
                                         any individual on whom the agency maintains information.
                                         In addition, each agency shall keep an accurate accounting of the
                                         date, nature, and purpose of each disclosure to any person or
                                         agency, as well as the name and address of the person or agency to
                                         whom disclosure is made.

         E-Government Act                This Act established a Federal Chief Information Officer within the
                3
         of 2002                         Office of Management and Budget to improve the methods by which
                                         Government information, including information on the Internet, is
                                         organized, preserved, and made accessible to the public. It
                                         established a framework of measures that require using
                                         Internet-based information technology to improve citizen access to
                                         Government information and services and for other purposes.


         Federal Information             This Act recognized the importance of information security to the
         Security Management Act         economic and national security interests of the United States. The
         of 20024                        Act requires each Federal agency to develop, document, and
                                         implement an agency-wide program to provide information security
                                         for the information and information systems that support the
                                         operations and assets of the agency, including those provided or
                                         managed by another agency, contractor, or other source.




1
  5 U.S.C. Section 552a (2006).
2
  The Privacy Act defines a system of records as a group of any records under the control of any agency from which
information is retrieved by the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual.
3
  Pub. L. 107-347, 116 Stat. 2899; 44 U.S.C. Section 101.
    H                H    H     H




4
  44 U.S.C. Sections 3541 - 3549.
                                                                                                          Page 2
                           Some Taxpayers Were Not Appropriately Notified
                          When Their Personally Identifiable Information Was
                                      Inadvertently Disclosed



   Internal Revenue Code       Tax return information is confidential and no officer or Federal
   Section 6103                employee should disclose tax return information except as
                               authorized.
                               Section 6103(c) authorizes the Department of the Treasury
                               Secretary to prescribe requirements and conditions that would allow
                               officers and Federal employees to disclose tax return information to
                               persons the taxpayer designates in a request for, or consent to, such
                               disclosure.

   Internal Revenue Code       Section 7216 applies to any person who is engaged in the business
   Section 7216                of preparing or providing services in connection with the preparation
                               of tax returns for compensation. Any such person who knowingly or
                               recklessly discloses any information furnished to him or her for, or in
                               connection with, the preparation of any such tax return, or uses any
                               such information for any purpose other than to prepare, or assist in
                               preparing, any such return, shall be guilty of a misdemeanor.

 Source: Laws as cited.

Office of Management and Budget guidance
The Office of Management and Budget (OMB) has also issued numerous memoranda to Federal
agencies providing guidance on how to handle and report disclosures. On July 12, 2006, the
OMB issued Memorandum 06-19 (M-06-19), “Reporting Incidents Involving Personally
Identifiable Information and Incorporating the Cost for Security in Agency Information
Technology Investments,” to Chief Information Officers stating that agencies are:
       . . . to report all incidents involving Personally Identifiable Information (PII) to the
       United States Computer Emergency Readiness Team (US-CERT) within one hour of
       discovering the incident … and should not distinguish between suspected and confirmed
       breaches.
On May 22, 2007, the OMB issued Memorandum 07-16 (M-07-16), “Safeguarding Against and
Responding to the Breach of Personally Identifiable Information.” This memorandum requires
agencies to develop and implement a breach notification policy and outlines the framework
within which agencies must develop this policy while ensuring proper safeguards are in place to
protect the information. All Federal information and information systems are subject to the
privacy and security requirements addressed in OMB M-07-16. Breaches subject to notification
requirements include both electronic systems as well as paper documents.
Agencies must determine whether notification of a breach is required, stating:
       . . . the agency should first assess the likely risk of harm caused by the breach and then
       assess the level of risk. Agencies should consider a wide range of harms, such as harm to
       reputation and the potential for harassment or prejudice, particularly when health or
       financial benefits information is involved in the breach. Agencies should bear in mind

                                                                                                   Page 3
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed



       that notification when there is little or no risk of harm might create unnecessary concern
       and confusion. Additionally, under circumstances where notification could increase a
       risk of harm, the prudent course of action may be to delay notification while appropriate
       safeguards are put in place.

The Privacy, Information Protection, and Data Security Office
In Fiscal Year 2007, the IRS established the Privacy, Information Protection, and Data Security
Office. Its mission supports four key programs.
   •   Privacy Policy to promote the protection of individual privacy and integrate privacy into
       business practices, behaviors, and technology solutions.
   •   Identity Protection to identify risks and reduce vulnerabilities for identity theft.
   •   Incident Management to improve victim assistance.
   •   Online Fraud Detection and Prevention to reduce online fraud against the IRS and
       taxpayers.
The Privacy and Information Protection Office is responsible for the Privacy Policy, Identity
Protection, and Incident Management Programs. This Office develops and implements an
enterprise-wide approach to privacy and information protection of taxpayer and employee
information, supports identity theft initiatives such as implementing a number of indicators to
mark taxpayer accounts affected by identity theft, and manages the IRS’s process for responding
to the loss of Personally Identifiable Information.
The Incident Management Program is responsible for ensuring IRS incidents involving the loss,
theft, or disclosure of Personally Identifiable Information and the loss or theft of an IRS asset are
investigated, analyzed, and resolved. Risk assessments are completed to evaluate the likely risk
of harm, specifically the potential for identity theft. Potentially affected individuals who are
determined to be at high risk of harm are notified without unreasonable delay. This office
manages the reporting, taxpayer notification, and tracking of data loss incidents (Disclosure
Notification Process) in accordance with OMB M-07-16.
This review was performed at the IRS National Headquarters in Washington, D.C., in the
Privacy, Information Protection, and Data Security Office and the Incident Management
Program during the period July 2010 to February 2011. We also held discussions and/or
obtained documentation from the Office of Technology Computer Security Incident Response
Center, the Small Business/Self-Employed Division Disclosure Office, and the Wage and
Investment Division Office of Taxpayer Correspondence. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
                                                                                              Page 4
                        Some Taxpayers Were Not Appropriately Notified
                       When Their Personally Identifiable Information Was
                                   Inadvertently Disclosed



audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 5
                                Some Taxpayers Were Not Appropriately Notified
                               When Their Personally Identifiable Information Was
                                           Inadvertently Disclosed




                                         Results of Review

The Disclosure Notification Process Needs Improvement to Ensure
Taxpayers Are Appropriately Notified of Inadvertent Disclosures
Our review of a statistical sample of 98 case files of incidents reported as inadvertent disclosures
in Fiscal Years 2009 and 2010 found that not all taxpayers were properly and/or timely notified
of disclosures.
       •   5 (5 percent) of 98 incidents were closed and taxpayers were not properly notified of the
           disclosures because IRS employees reporting the disclosure did not document the identity
           of the individuals whose Personally Identifiable Information had been disclosed.
       •   10 (10 percent) of 98 incidents were closed and taxpayers were not properly notified of
           the disclosures because only tax account information was disclosed and IRS procedures
           did not include tax account information in its definition of Personally Identifiable
           Information.
       •   20 (74 percent) of the 27 incidents in the 98 incidents sampled that required taxpayer
           notification were not sent timely. We considered notifications timely if taxpayers were
           sent notifications within 45 days of the date the incident was reported to or identified by
           the IRS. The notification letters in the sample averaged 86 days.
Twenty-one (21 percent) of 98 incidents were also closed without the IRS notifying taxpayers
that their Personally Identifiable Information had been disclosed because the disclosure was
made to individuals with power of attorney5 responsibilities, State agencies, law firms, or payroll
processors. The IRS considers that these individuals and businesses do not pose a likely risk of
identity theft or other harm to taxpayers. In addition, in **************1***************
*********************************1*****************************but the IRS took
no further action on the case.
IRS records show that there were 4,081 inadvertent disclosures processed in Fiscal Years 2009
and 2010. Of these, 1,493 incidents required that 2,812 taxpayers be notified.6 Without
improvements to the Disclosure Notification Process, there is no assurance that all taxpayers who
have had their Personally Identifiable Information inadvertently disclosed by the IRS will be
properly identified and/or notified timely. Therefore, taxpayers may not take the proper
precautions needed to protect themselves from identity theft or other harm.

5
    Taxpayers grant a power of attorney to an individual so that individual can represent the taxpayer before the IRS.
6
    Each incident may affect more than one taxpayer.
                                                                                                                Page 6
                           Some Taxpayers Were Not Appropriately Notified
                          When Their Personally Identifiable Information Was
                                      Inadvertently Disclosed



Management controls should provide reasonable assurance that all disclosures are appropriately
recorded and considered. Systems used to record and track disclosures need to be complete and
accurate with sufficient reviews to ensure all actions have been appropriate. Activities need to
be established to monitor performance measures and indicators.
In Fiscal Year 2007, the IRS created the Incident Management Program to manage the
reporting and notification for data loss incidents in accordance with OMB M-07-16
In September 2007, the IRS established the Incident Management Program to manage the IRS’s
Personally Identifiable Information Incident Notification Process for taxpayers and employees
potentially affected by IRS data loss incidents. In 3 years, the IRS has:
    •   Developed procedures to comply with applicable laws and regulations.
    •   Developed various management information systems to report, control, and track
        disclosures and data losses.
    •   Provided guidance to IRS employees on disclosures and how to report them.7
    •   Established the Disclosure Notification Process and developed user desk guides and
        manuals for employees to follow when investigating, analyzing, and resolving incidents.
In Fiscal Year 2009, the IRS took several steps to improve its ability to report and assess
potential breaches of Personally Identifiable Information. It revised incident reporting
procedures, and due to the volume and complexity of taxpayer correspondence, determined that
all taxpayer correspondence issues should first be reviewed by the IRS’s Office of Taxpayer
Correspondence.8
The Disclosure Notification Process
When sensitive information is lost, stolen, or inadvertently disclosed in any way, whether it be
electronically, verbally, or in hardcopy form, IRS employees are required to report the incident
within 1 hour. IRS guidelines state:
        The timely reporting within one hour of all information losses or thefts is critical. This is
        so that any needed investigation can be initiated quickly to decrease or mitigate the
        possibility the information will be compromised and used to perpetrate identity theft or
        other forms of fraud.
If an employee sees indications of an intentional unauthorized disclosure, the incident must be
reported to the Treasury Inspector General for Tax Administration as soon as possible.



7
 See Appendix V for a description of the IRS Employee Instructions on Reporting Inadvertent Disclosures.
8
 The Office of Taxpayer Correspondence provides comprehensive correspondence services—from design and
development to effectiveness and downstream impact.
                                                                                                      Page 7
                             Some Taxpayers Were Not Appropriately Notified
                            When Their Personally Identifiable Information Was
                                        Inadvertently Disclosed



The IRS determined that incidents involving notices should be submitted to the IRS Office of
Taxpayer Correspondence. Employees in the Office of Taxpayer Correspondence determine if
the disclosure meets criteria and if it does, the incident is reported to the Computer Security
Incident Response Center (CSIRC). The CSIRC is a centralized reporting facility for all
computer security privacy incidents.
The following are the steps in the Disclosure Notification Process for incidents not related to
notices:9

Step One         When disclosure incidents involving Personally Identifiable Information occur,
                 the incident is reported to the CSIRC. IRS employees report the incident using
                 the CSIRC online reporting form or by calling 866-216-4809. The completed
                 form is electronically submitted through the CSIRC portal creating a systemically
                 numbered email to the CSIRC “Disclosure of Sensitive Data” mailbox.
Step Two         An employee in the Incident Management Program reviews the incident report
                 emails received in the CSIRC “Disclosure of Sensitive Data” mailbox. An initial
                 assessment is performed to determine if Personally Identifiable Information or
                 “Sensitive But Unclassified” data are involved. If the incident appears to be an
                 inadvertent unauthorized disclosure, it is entered into the CSIRC centralized
                 Incident Tracking System10 maintained by the IRS Modernization and Information
                 Technology Services organization.
Step Three       The Incident Tracking System automatically assigns an Incident Response
                 number to the new incident created and generates an email that is forwarded to the
                 Incident Management Program “Personally Identifiable Information” mailbox.
                 The email contains an incident summary to notify Incident Management Program
                 employees a new incident has been created. To obtain incident details, an
                 Incident Management Program employee emails the reporting employee and
                 manager to request completion of the Personally Identifiable Information
                 Analysis Template and the Impacted Taxpayer Data Spreadsheet.
Step Four        The Incident Tracking System is accessed to obtain incident details needed to
                 establish a new incident on the E-Trak System.11 The E-Trak System is used to
                 control and track data breach, disclosure, loss, and theft incidents reported
                 through the CSIRC. Incident Management Program employees perform a second
                 assessment to evaluate the risk of harm for all reported IRS data loss incidents
                 involving Personally Identifiable Information, based on standardized factors and

9
  See Appendix VI for a flowchart of the Disclosure Notification Process.
10
   The Incident Tracking System provides an automated process to capture, process, and track incident data and
generate reports.
11
   The E-Trak System is an off-the-shelf case-tracking tool used to respond to a public law.
                                                                                                           Page 8
                        Some Taxpayers Were Not Appropriately Notified
                       When Their Personally Identifiable Information Was
                                   Inadvertently Disclosed



              ratings criteria. After complete analysis, they will code the incident:
              Orange Incident does not contain Personally Identifiable Information, so there is
                     no risk of identity theft or other harm. Notification letters are not
                     required.
              Green     The risk of identity theft or other harm is unlikely. Notification letters
                        are not required.
              Red       The risk of identity theft or other harm is likely. Notification letters are
                        required. Some cases are coded Red-No Notification if the risk of
                        identity theft or harm is likely but the reporting business unit is unable to
                        provide the names and Social Security Numbers of the potentially
                        affected individuals.
              Blue      This data loss could compromise national security, is grand jury, or
                        could compromise an ongoing investigation.
              Incidents coded Orange and Red - No Notification are updated on the E-Trak
              System and closed without further actions. Code Blue incidents are forwarded to
              an Executive Team. Executive Summary Reports are generated for incidents
              coded Green and Red.
Step Five     Incidents coded Green and Red are forwarded to the Incident Management
              Working Group for review. When approved, incidents coded Green are updated
              on the E-Trak System and closed. Incidents coded Red are updated on the E-Trak
              System and forwarded for additional review and approval.
Step Six      Incidents coded Red are presented to IRS executives who are members of the
              Privacy and Information Protection Advisory Committee for approval and
              concurrence. If all concur, the potentially affected individuals are then notified of
              the data loss via Incident Management Breach Notification Letter (Letter 4281C).
              The IRS also offers taxpayers 1 year of free credit report monitoring through a
              national credit reporting bureau. In addition, it inputs an identity theft data loss
              indicator on the taxpayers’ accounts so the IRS can identify a taxpayer whose
              Personally Identifiable Information was lost or disclosed because of an IRS data
              loss incident. The E-Trak System is updated and the cases are closed.

The IRS codes incidents Orange or Green in four circumstances and will not send
notifications
Guidance from the OMB states that upon learning of a disclosure, agencies should assess the
likelihood that Personally Identifiable Information will be or has been used by unauthorized
individuals. This is a difficult standard to measure because the IRS cannot know if those who

                                                                                              Page 9
                            Some Taxpayers Were Not Appropriately Notified
                           When Their Personally Identifiable Information Was
                                       Inadvertently Disclosed



inadvertently come by another individual’s Personally Identifiable Information or tax account
information will use that information to cause harm. However, though there is a risk, it is
reasonable to assume the risk is unlikely when a disclosure is inadvertently made to a third party
that routinely handles Personally Identifiable Information or tax information, or has a trusted
relationship with the IRS.
Accordingly, when considering whether a taxpayer is likely to be at risk of identity theft or other
harm, the Incident Management Program developed procedures that state it will code incidents
Orange or Green (i.e., the IRS will not send notifications or place indicators on the accounts) in
the following four circumstances:
     1. Where the IRS employee follows all IRS established procedures (e.g., mailed to address
        of record; provided with an incorrect fax number; caller subsequently determined not
        taxpayer after authentication requirements completed) but a disclosure of sensitive
        information still occurs. These are to be coded Orange.
     2. Where the IRS transmits taxpayer Personally Identifiable Information to registered
        participants of the Income Verification Express Services Program.12 These are to be
        coded Green.
     3. Where the IRS sends the taxpayer’s Personally Identifiable Information to an incorrect
        employer (one in which the taxpayer has no current or past relationship) originating from
        the IRS’s Criminal Investigation Questionable Refund Detection Team or Accounts
        Management function Taxpayer Assurance Program. These are to be coded Green.
     4. Where the IRS inadvertently discloses taxpayer account information (i.e., unfiled return
        or balance due information) to an individual who already has the personal or business
        information and the information disclosed is not categorized as Personally Identifiable
        Information. These are to be coded Orange.
Twenty-one (21 percent) of 98 incidents sampled were closed without the IRS notifying
taxpayers that their Personally Identifiable Information had been disclosed to individuals and
businesses that routinely handle Personally Identifiable Information and/or tax account
information. The IRS considers certain third parties who routinely obtain or process Personally
Identifiable Information and/or tax account information, such as individuals with a power of
attorney, State agencies, or payroll processors, to present little or no risk of identity theft or other
harm to the taxpayer. Therefore, it was determined that it was not necessary to notify the
taxpayer of these disclosures.



12
  Taxpayers commonly request tax return transcripts for many reasons, including verifying income to obtain a loan.
They can order the transcripts directly from the IRS or others can order the transcripts on the taxpayer’s behalf.
Lenders and other entities verify income information on behalf of a taxpayer through the IRS’s Income Verification
Express Services Program.
                                                                                                         Page 10
                             Some Taxpayers Were Not Appropriately Notified
                            When Their Personally Identifiable Information Was
                                        Inadvertently Disclosed



Data loss indicators are posted only for individuals with IRS tax accounts
A taxpayer’s Master File13 account should be marked with the identity theft data loss indicator on
accounts where Letter 4281C has been issued. Thirty-two taxpayers were sent notification letters
related to the 27 incidents in our sample that required a Letter 4281C. Of the 32 individuals:
     •   ***********************************1************************************
         ***********************.
     •   *************************************1*******************************.
Individuals who have had their Personally Identifiable Information disclosed may not have a tax
account. In most instances, these individuals are spouses, children, or dependents of the primary
taxpayer and the primary taxpayer has provided their names and Social Security Numbers on his
or her tax return, which was inadvertently disclosed.
These spouses, children, or dependents may not currently have a filing obligation or have a tax
account. In instances where Personally Identifiable Information for a minor child has been
disclosed, notification letters are mailed to the parents, but credit monitoring is not provided if
the minor child is the only individual affected and a data loss indicator is not placed on a tax
account because the minor child does not have a tax account. The burden is shifted to the parent
of a minor child to remain aware of consequences resulting from the inadvertent disclosure if and
when they file a tax return of their own.

Not all cases included the identity of the individual whose Personally Identifiable
Information was disclosed
In 5 (5 percent) of the 98 incidents, the incidents were
closed code Red but without the IRS notifying                Five percent of incidents sampled
taxpayers that their Personally Identifiable Information        were closed without the IRS
had been disclosed because the incident report did not        notifying taxpayers because the
                                                             incident report did not include the
include the identity of the individuals whose Personally      identity of the individuals whose
Identifiable Information had been disclosed. Projected       Personally Identifiable Information
to the population of 4,081 inadvertent disclosures                   had been disclosed.
processed in Fiscal Years 2009 and 2010, there may
have been 204 incidents where the IRS acknowledged
Personally Identifiable Information had been disclosed but the IRS did not notify the affected
taxpayers. This happened because IRS employees did not document the identities of the
individuals whose Personally Identifiable Information was disclosed, even though the taxpayers’
identities were obtainable.


13
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 11
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed



For example, a taxpayer calls the toll-free telephone lines and asks what he or she should do with
a copy of another taxpayer’s tax return when it was included in the envelope with the copy of the
tax return he or she had requested. The assistor instructs the caller to mail it back to the IRS, but
fails to ask for or document the name and Social Security Number of the taxpayer whose tax
return was mistakenly included with the caller’s.
However, there may be times when the employee is unable to determine the identity of the
taxpayer whose information was inadvertently disclosed. For example, an employee may be
stuffing notices into envelopes and realize, after the fact, a notice is missing and must have been
stuffed into an envelope addressed to another taxpayer that had already gone out with the mail.

Taxpayers are not always contacted when the only information disclosed is tax
account information
In 10 (10 percent) of the 98 incidents, tax account information was disclosed but the IRS closed
the incident without notifying taxpayers that their tax account information had been disclosed.
This happened because IRS procedures did not include tax account information in its definition
of Personally Identifiable Information. Projected to the population of 4,081 inadvertent
disclosures processed in Fiscal Years 2009 and 2010, there may have been 408 incidents where
the IRS disclosed tax account information but the IRS did not notify the affected individuals.
This could occur when someone who has a relationship or prior relationship with a taxpayer
(e.g., a spouse, former spouse, or business partner) calls the IRS asking for the taxpayer’s
account information. The assistor follows all IRS procedures to authenticate the caller, only later
to find that the caller is not the taxpayer. The Incident Management Program codes this type of
incident Orange, “Incident does not contain Personally Identifiable Information, so there is no
risk of identity theft or other harm.” An Executive Summary Report will not be prepared for this
type of incident and the incident will be closed.
However, Personally Identifiable Information includes any information about an individual
maintained by an agency, including any other information that is linked or linkable to an
individual, such as:
   •   Medical.
   •   Educational.
   •   Financial.
   •   Employment.
Therefore, tax account information is Personally Identifiable Information. Assistors authenticate
taxpayers by asking their name, Social Security Number, address, date of birth, and filing status.
A caller with a relationship to the taxpayer may know all this information. However, the caller
may be calling without the taxpayer’s knowledge or permission to obtain information about the

                                                                                             Page 12
                           Some Taxpayers Were Not Appropriately Notified
                          When Their Personally Identifiable Information Was
                                      Inadvertently Disclosed



taxpayer’s tax account. While these individuals may not intend to steal or assume the taxpayer’s
identity, the taxpayer is at risk of other harm. For example, an ex-spouse or business partner
may be calling to obtain information on the taxpayer’s current income. Once this information is
obtained, these individuals may use this information for any number of purposes, including legal
actions that could potentially harm the taxpayer.
In August 2009, private investigators were sentenced
after being convicted for illegally obtaining
confidential medical records, tax records, and                     Private investigators used
employment information by posing as the subjects of                illegal methods to illegally
their investigations who had legitimate claim to the            obtain   confidential information
                                                                      from Federal agencies.
records. From January 2004 to May 2007, employees
from a private investigation company posed as the
people they were investigating to trick the targets into
releasing sensitive information (e.g., Social Security Number, verifications, tax returns, and
medical histories) and selling this information to other private investigators, law firms, and
others. 14
OMB guidance instructs agencies to consider a number of possible harms associated with the
loss or compromise of information. Harm may include the:
     •   Effect of a breach of confidentiality or fiduciary responsibility.
     •   Potential for blackmail, the disclosure of private facts, mental pain, and emotional
         distress.
     •   Disclosure of address information for victims of abuse.
     •   Potential for secondary uses of the information which could result in fear or uncertainty.
     •   Unwarranted exposure leading to humiliation or loss of self-esteem.
Taxpayer’s account information is valuable information. Nevertheless, IRS procedures do not
require that the taxpayer be notified when another individual has attempted to access his or her
tax account information, but no other Personally Identifiable Information was disclosed. The
IRS should notify taxpayers when someone else has accessed their tax accounts to ensure
taxpayers are aware of the incident and can take appropriate actions.




14
  United States Attorney’s Office: Western District of Washington, News Release, TEN INDICTED FOR
PRETEXTING IN “OPERATION DIALING FOR DOLLARS”: Defendants Would Adopt Various Identities to Get
Confidential Tax, Medical and Employment Info (December 6, 2007), available at
http://www.justice.gov/usao/waw/press/2007/dec/torrella.html
                                                                                                Page 13
                           Some Taxpayers Were Not Appropriately Notified
                          When Their Personally Identifiable Information Was
                                      Inadvertently Disclosed



There are limited procedures for the IRS to contact taxpayers who unknowingly
may be victims of identity theft
The IRS will notify a taxpayer (victim) by letter when someone may have attempted to use his or
her Social Security Number for incidents resulting from the following:
     •   Phishing and refund schemes.
     •   Verified false returns.
     •   Mixed entity research.
     •   Certain unpostable returns.
**************************************1**************************************
********1*****************. The incident was coded Orange and the Incident Management
Program did not notify the taxpayer. Projected to the population of 4,081 inadvertent disclosures
processed in Fiscal Years 2009 and 2010, there may have been 41 incidents in which the IRS
became aware that a taxpayer’s identity may have been stolen by an individual but the IRS did
not notify the taxpayer.
The information was also not reported to the IRS’s Identity Theft Program because Disclosure
Notification Process procedures do not require it. When the IRS learns that a taxpayer’s identity
may have been stolen, the information should be referred to the Identity Theft Program for
resolution, including determining if an identity theft indicator should be placed on the taxpayer’s
account.
We have reported that the IRS needs to take more actions to address employment-related and tax
fraud identity theft.15 The use of another person’s Social Security Number to obtain employment
is often done in conjunction with a name different from Social Security Administration records.
This is known as a Social Security Number/name mismatch. In these instances, the IRS and the
Social Security Administration do not associate the
income and benefits with the lawful taxpayer. The          Serious problems develop for lawful
number of Wage and Tax Statements (Form W-2)                  taxpayers when both their name
                                                             and Social Security Numbers are
with Social Security Number/name mismatches is              used by others to gain employment.
substantial.
While Social Security Number/name mismatches are
a significant problem for the IRS and the Social Security Administration, the more serious
problem develops for the lawful taxpayer when both their name and Social Security Number are
used by someone else to gain employment. No action is taken to stop someone from continuing



15
  Outreach Has Improved, but More Action Is Needed to Effectively Address Employment-Related and Tax Fraud
Identity Theft (Reference Number 2008-40-086, dated March 25, 2008).
                                                                                                   Page 14
                             Some Taxpayers Were Not Appropriately Notified
                            When Their Personally Identifiable Information Was
                                        Inadvertently Disclosed



to commit employment-related identity theft using another person’s Social Security Number and
name.
The IRS does not actively try to identify or stop an individual from committing identity theft.
Moreover, the IRS does not notify the employer of the problem of their employee using someone
else’s identity. Because the IRS and the Social Security Administration will assume the
information on the Forms W-2 is accurate, the earnings resulting from the identity theft will be
attributed to the lawful taxpayers for determining both Social Security benefits and tax liabilities.
The IRS generally does not pursue the taxes that may be due on income earned using a stolen
identity.
We have also reported that the IRS does not notify the taxpayer when there is evidence that the
taxpayer’s identity has been stolen.16 The IRS has stated that the Social Security Administration
has a program in place called the Employee No-Match Letter that requests correct information
from individuals. The IRS believes its involvement would possibly be a duplication of the Social
Security Administration’s efforts.

Taxpayers are not always timely notified when their Personally Identifiable
Information has been inadvertently disclosed
From our sample of 98 incidents, the IRS mailed notification letters to taxpayers for 27 of the
reported incidents. In only 7 (26 percent) of 27 incidents, the notifications were mailed within
45 days of the date the incident was reported to or identified by the IRS. See Figure 2 for a
breakdown of the number of days between the date the IRS was notified or identified the incident
and the date the notifications were mailed.
          Figure 2: Analysis of Days Between the Date the IRS Was Notified
            or Identified and the Date the Notification Letters Were Mailed

      Number of           1-45           46-75          76-100        101-150    More Than      Total
      Days                Days           Days            Days          Days      150 Days     Incidents

      Number of
                            7               7              6                 3       4            27
      Incidents

     Source: Our analysis of 98 cases selected for the statistical sample.

For these 27 incidents, the time from the date the incident was reported or identified to the date
the notification letter was mailed ranged from 20 to 226 days–with a median of 68 days and an
average of 86 days. The IRS has established a business measure for the Disclosure Notification
Process to notify potentially affected individuals with a median lapse time of 45 days from the
date reported to the CSIRC to the date the notification letter is mailed.

16
 Procedures Need to Be Developed for Collection Issues Associated With Individual Taxpayer Identification
Numbers (Reference Number 2010-40-040, dated March 29, 2010).
                                                                                                       Page 15
                          Some Taxpayers Were Not Appropriately Notified
                         When Their Personally Identifiable Information Was
                                     Inadvertently Disclosed



Through Fiscal Year 2010, the population of incidents the IRS used to determine the median
included only the incidents input on the CSIRC and notification letters mailed within a fiscal
year (October 1 through September 30). If the notification letter was mailed in a subsequent
fiscal year, it was not counted in either fiscal year.
The IRS is also not measuring the total time associated with processing the disclosures reported
through the Office of Taxpayer Correspondence or other IRS offices or functions. For example,
incidents reported through the Office of Taxpayer Correspondence are tracked from the date they
are input into the CSIRC. This does not include the days the employees in the Office of
Taxpayer Correspondence work the incidents.
The IRS needs a measure to determine if all incidents are reported timely. This will ensure
taxpayers are alerted to the risk in sufficient time to take precautions against identity theft or
other harm.

Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 1: Educate employees on the importance of obtaining sufficient
information on individuals whose Personally Identifiable Information was disclosed so they can
be notified of the disclosure and can take the necessary steps to protect themselves from identity
theft or other harm. The information should be documented when learning of a disclosure rather
than after the fact and include enough information to identify the taxpayer whose information
was disclosed and to whom it was disclosed.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS recently implemented a Think Data Protection campaign, which consists of a series
       of targeted employee communications using various media reaching across the IRS,
       designed to education employees on the importance of protecting sensitive information
       and reporting any losses or disclosures. In addition, the business units will continue to
       emphasize the data that should be gathered and reported when an incident occurs.
Recommendation 2: Revise procedures to: 1) ensure the definition of Personally Identifiable
Information includes tax account information so taxpayers whose tax account information has
been disclosed will be appropriately notified of a disclosure and 2) include instructions to
forward disclosure incidents to the IRS’s Identity Theft Program when the Incident Management
Program learns that a taxpayer may already have been a victim of identity theft.
       Management’s Response: IRS management agreed with this recommendation.
       During the assessment of a reported incident and the determination of whether
       notification is appropriate, the IRS applies the OMB’s definition of Personally
       Identifiable Information. While the incidents noted in the report do not meet the
       definition of a disclosure of Personally Identifiable Information, the IRS will study the

                                                                                               Page 16
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed



       possible expansion of the notification process to address these situations. As part of this
       process, the IRS will strengthen procedures to coordinate with the appropriate function to
       ensure identity theft is addressed. To date, the IRS has no evidence of an inadvertent
       disclosure that has led to a taxpayer becoming a victim of identity theft.
       Office of Audit Comment: The IRS stated that it applies the OMB’s definition of
       Personally Identifiable Information and that the incidents noted in the report do not meet
       the definition of a disclosure of Personally Identifiable Information.
       We believe that tax account information, which is financial information, is included in
       the definition of Personally Identifiable Information. OMB M-07-16 defines Personally
       Identifiable Information as “information which can be used to distinguish or trace an
       individual’s identity, such as their name, Social Security Number, biometric records, etc.
       alone, or when combined with other personal or identifying information which is linked
       or linkable to a specific individual, such as date and place of birth, mother’s maiden
       name, etc.”
       The Guide to Protecting the Confidentiality of Personally Identifiable Information (The
       U.S. Department of Commerce, Special Publication 800-122, April 2010) states that
       Personally Identifiable Information is any information about an individual maintained by
       an agency. This includes any information that is linked or linkable to an individual, such
       as medical, educational, financial, and employment information.
       In addition, the IRS stated in its response that to date, it has no evidence of an inadvertent
       disclosure that has led to a taxpayer becoming a victim of identity theft. We reported that
       in one incident sampled, **************************1************************
       ****************1****************.
Recommendation 3: Implement a timeliness measure to ensure taxpayers are timely notified
and to gauge the overall performance of the Disclosure Notification Process, and include the
time the incident is being processed by the Office of Taxpayer Correspondence or other IRS
offices or functions before it is reported to the CSIRC.
       Management’s Response: IRS management agreed with this recommendation.
       Current reporting measures the elapsed time between the CSIRC report date and
       notification letter date. Based on this measure, the IRS has demonstrated positive
       performance in Fiscal Year 2011, averaging a 20-day response time through April 21,
       2011. The IRS will expand its current metrics to include a broader organizational
       measure that incorporates the elapsed time between initial incident reporting and taxpayer
       notification dates.




                                                                                            Page 17
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed



Multiple Information Systems and Manual Processes Increase the
Risk That Not All Incidents Are Considered and Controlled
There is no assurance that all disclosure incidents reported were considered and processed. A
test of 4,800 disclosure incidents reported on the CSIRC identified 898 missing reports.
Management controls should provide reasonable assurance that all disclosures are appropriately
recorded and considered. Systems used to record and track disclosures need to be complete and
accurate. The Disclosure Notification Process management information systems need to be
improved to ensure all incidents are considered and appropriately processed, and that the IRS has
sufficient data to effectively monitor the Process and ensure it is meeting all the objectives of the
Incident Management Program.
Disclosure incidents are processed using three systems–the CSIRC email portal, the Incident
Tracking System, and the E-Trak System–during the Disclosure Notification Process. The
Office of Taxpayer Correspondence uses a fourth system, the System for Tracking and Analysis
of Correspondence Impact, to track the incidents that are reported to that office.
   •   Each system is independent of the others and does not communicate with the others.
   •   Data are manually keyed into the Incident Tracking System and the E-Trak System from
       the emails generated by the CSIRC portal.
   •   Three different numbering schemes are used to track the incidents. Only the Incident
       Response number generated by the Incident Tracking System is used by the E-Trak
       System. This makes it difficult to ensure all incidents are being considered and timely
       processed.
The IRS does not reconcile the various systems to ensure the databases are complete and all
incidents are processed. Because of the lack of reconciliation, the reliability of the databases is
at risk.
Testing of the System for Tracking and Analysis of Correspondence Impact showed that all
incidents reported to the Office of Taxpayer Correspondence were appropriately reported to the
CSIRC. However, reconciliations completed on the other three systems identified missing
records.
The CSIRC Portal and Incident Tracking System
A test of 4,800 CSIRC portal disclosure incident
                                                        Seventeen percent of CSIRC portal
email reports identified that 898 (19 percent)            disclosure incident reports were
incidents were not on the Incident Tracking System.              not controlled on the
After researching the systems, the IRS was later able         Incident Tracking System.
to find 86 of the 898 records. The actions taken on
the remaining 812 (17 percent) of the
4,800 disclosure incidents reported through the CSIRC portal could not be determined.
                                                                                             Page 18
                          Some Taxpayers Were Not Appropriately Notified
                         When Their Personally Identifiable Information Was
                                     Inadvertently Disclosed



The CSIRC portal disclosure incident email reports are not tracked, controlled, or maintained for
review. CSIRC portal submissions are not stored in their own database. They are simply emails
generated by the Portal form submission. The emails are reviewed and those that are considered
disclosure incidents are entered into the Incident Tracking System. When the Incident
Management Program employee determines the incident does not meet the definition of a
disclosure, the employee emails the individual reporting the incident that disclosure criteria has
not been met and no further action is being taken. Although the incident email is received by the
“Disclosure of Sensitive Data” mailbox, the response emails to the reporting employee are from
the Incident Management Program employee’s personal mailbox application and archived from
the analyst’s mailbox.
The IRS does not quantify the total number of CSIRC disclosure incident email reports received,
the total number not meeting the disclosure criteria, or the total number meeting the criteria and
elevated to be entered into the Incident Tracking System. There are no controls to ensure an
incident report email is not deleted. The IRS cannot be assured all emails are reviewed. There
are also currently no managerial or quality reviews of the CSIRC portal disclosure incidents
reported to ensure the decisions are appropriate. This increases the risk that some affected
taxpayers might not be notified about an inadvertent disclosure of their Personally Identifiable
Information.
The Incident Tracking System and the E-Trak System
A comparison of 4,321 Disclosure of Sensitive Data Incident Report Numbers in the Incident
Tracking System to the E-Trak System identified 3 (0.7 percent) incident records were not on the
E-Trak System.
   •   Three incidents were not transmitted from the Incident Tracking System to the Incident
       Management Program mailbox to be worked and input to the E-Trak System. The IRS
       has since input the incidents to the E-Trak System and is attempting to contact the
       employees and managers to obtain additional information.
A comparison of 4,081 E-Trak System disclosure incidents to the Incident Tracking System
showed only 1 incident was not recorded on the Incident Tracking System. This incident was
erroneously input into the Incident Tracking System (i.e., it did not meet the criteria for a
disclosure) and was subsequently deleted from the Incident Tracking System. However, the
E-Trak System was not updated to show the reason for the deletion.
                                         The IRS is currently in the process of replacing the
        A new process is being           CSIRC portal and Incident Tracking System. Submission
    implemented so that incidents        of the CSIRC online reporting form will automatically
      reported will automatically        populate a database generating an incident notification
    populate a database, reducing        email to the Incident Management Program to control on
   the risk that all incidents are not
               controlled.               the E-Trak System. This will reduce the risk that all
                                         reported incidents are not controlled. However, controls

                                                                                          Page 19
                        Some Taxpayers Were Not Appropriately Notified
                       When Their Personally Identifiable Information Was
                                   Inadvertently Disclosed



will need to be implemented to ensure all reported incidents are accounted for as meeting or not
meeting disclosure criteria and provide for a quality review of criteria decision accuracy.
The IRS should evaluate whether the current systems could be integrated or if systems can be
developed that allow for automatic updating and sharing information. This would reduce the
need to reconcile between the systems. In addition, the information from all the systems should
be used to measure the Disclosure Notification Process and assess how it can be improved. The
information could also be useful in identifying trends in incidents. Management information is
essential to make sound business decisions. Data must be accurate and complete.

Multiple systems and manual processes reduce management’s ability to
effectively oversee the Disclosure Notification Process
There is no single system that tracks incidents from the time they occur and are reported to the
time the incidents are evaluated and closed. The IRS uses four independent systems to capture
disclosure incident-related information. This requires the use of time-consuming manual data
entry, which is susceptible to transcription errors, to process the incidents. Detailed incident
information cannot be easily organized, categorized, and accessed for trend analysis to enhance
management oversight.
None of the systems communicate with each other so the IRS does not have the ability to
determine, for example:
    • The total number of disclosure incidents reported and how many resulted in notifications.
    • The causes of the disclosures.
    • The responsible office for the disclosure.
    • The most common types of disclosures.
Further, the IRS is not tracking whether incidents are being reported within 1 hour, as required.
As more time elapses between the disclosure incident and reporting, there is a greater likelihood
that the incident report will not include key data elements such as the individual’s name and
Social Security Number. This is because the reporting person may not acquire and maintain the
affected individual’s key information. Without the key data elements, the IRS cannot properly
notify individuals who have had their information compromised.
Currently, any type of incident trend analysis would be very laborious because detailed incident
information is stored in various systems, collected at different points in time, and not easily
accessible. However, the data would be useful for management to analyze the Disclosure
Notification Process and determine if it is meeting its objectives and goals and if the Process
could be more efficient or effective. The information could also be useful in educating
employees on how to avoid making inappropriate disclosures.


                                                                                          Page 20
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed



Disclosures related to taxpayer correspondence are to be reported first to the Office of
Taxpayer Correspondence so that systemically generated notice issues can be quickly
identified and resolved
In our sample of 98 incidents, 41 (42 percent) incidents were reported through the Office of
Taxpayer Correspondence. Not all of these cases were related to systemic issues. For example,
these cases typically involved letters addressed to an incorrect taxpayer or a letter for one
taxpayer that was erroneously included in the same envelope with another taxpayer’s letter. An
example of a systemic issue is a computer program accidentally printing one taxpayer’s
information on another taxpayer’s notice.
The Office of Taxpayer Correspondence reviews the reported incidents, obtains additional data
from the individual who reported the incident, and for the incidents considered disclosures inputs
them into the CSIRC. The Office of Taxpayer Correspondence took an average of 39 days—
from 2 to 84 days—to process the 41 incidents in our sample that originated in the Office of
Taxpayer Correspondence. This time is not included in the IRS’s business measure for
Disclosure Notification Process timeliness.
The IRS should evaluate the information it has on disclosure incidents reported through the
Office of Taxpayer Correspondence to determine if the issues are predominantly systemic and
whether incidents related to individual notices should continue to be reported first to the Office
of Taxpayer Correspondence.

Recommendation
Recommendation 4: The Deputy Commissioner for Operations Support should implement
sufficient controls to ensure that all incidents are accurately documented, controlled, and
considered and develop a management information system sufficient to oversee disclosure
incidents. This would include an evaluation of whether one system can be developed to track
incidents from IRS notification to closure. If multiple systems must be used, consideration
should be given to automatic updates between the systems to limit the need for manual
reconciliations.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will be implementing the Threat Incident Response Center and consolidating data
       from all systems for the most serious incidents. Routing reconciliations between systems
       have found minimal differences between CSIRC reports and the risk assessment-tracking
       database.




                                                                                            Page 21
                             Some Taxpayers Were Not Appropriately Notified
                            When Their Personally Identifiable Information Was
                                        Inadvertently Disclosed



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is making appropriate
decisions to promptly and properly notify taxpayers of inadvertent disclosures of their tax
information. To accomplish this objective, we:
I.      Determined what IRS procedures and processes are in place to identify inadvertent
        disclosures and to notify taxpayers.
        A. Reviewed all applicable laws and regulations to gain a clear understanding and ensure
           the IRS is appropriately adhering to them.
        B. Reviewed IRS internal procedures and processes, including manuals, user guides, and
           the IRS intranet.
        C. Met with the appropriate IRS personnel to discuss and document the processes used
           to identify inadvertent disclosures and notify taxpayers that their Personally
           Identifiable Information has been disclosed.
        D. Identified systems used to capture the incidents of inadvertent disclosure and to notify
           taxpayers.
II.     Determined whether the IRS is accurately controlling all reported disclosure incidents.
        We identified all disclosure incidents on the following systems with the CSIRC1 portal
        email date for the period October 1, 2008, to September 30, 2010. We assessed the
        reliability of computer system data by performing electronic testing of required data
        elements and interviewing agency officials knowledgeable about the data. We identified
        deficiencies in the completeness of the data and made a recommendation to address those
        deficiencies. We performed the following comparisons to validate whether all incidents
        were accurately controlled.
        A. Compared 4,800 disclosure incident emails submitted through the CSIRC portal to
           4,321 Incident Tracking System2 disclosure incidents.
        B. Compared 4,321 Incident Tracking System disclosure incidents to 4,081 E-Trak
           System3 disclosure incidents.


1
  The CSIRC is the centralized reporting facility for all computer security privacy incidents.
2
  The Incident Tracking System provides an automated process to capture, process, and track incident data and
generate reports.
3
  The E-Trak System is an off-the-shelf case-tracking tool used to respond to a public law.
                                                                                                         Page 22
                             Some Taxpayers Were Not Appropriately Notified
                            When Their Personally Identifiable Information Was
                                        Inadvertently Disclosed



        C. Compared 1,779 System for Tracking and Analysis of Correspondence Impact
           disclosure incidents to 4,321 Incident Tracking System disclosure incidents.
        D. Compared 4,081 E-Trak System disclosure incidents to 4,321 Incident Tracking
           System disclosure incidents.
III.    Determined whether appropriate decisions were made for notifying the taxpayer of
        inadvertent disclosures of tax information.
        A. Selected a statistical sample of 98 closed incidents from the population of
           4,081 E-Trak System disclosure incidents using a confidence rate of 95 percent, a
           precision rate of 5 percent, and an error rate of 7 percent. The error rate was
           established from a probe sample of 15 randomly selected disclosure incidents
           resulting in 1 (7 percent) of 15 incidents where the individual should have been
           notified of Personally Identifiable Information disclosure.
        B. Reviewed the sampled records and associated data in the IRS Incident Management
           archived shared drawer and from the Office of Taxpayer Correspondence to
           determine if appropriate decisions were made.
        C. Using the sample from Step III.A., reviewed the Integrated Data Retrieval System4 to
           determine whether the identity theft indicator had been input on the account.
IV.     Determined whether taxpayers were notified timely of inadvertent disclosures.
        A. Identified the business measure used to indicate timeliness of notification.
        B. Using the sample from Step III.A., identified 27 incidents with notifications mailed to
           taxpayers.
        C. Reviewed the selected records to identify the length of time from the date the incident
           was reported to or identified by the IRS and the date the notification letter was mailed
           to the taxpayer.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Incident Management Program
policies and procedures aimed at timely reaction and appropriate responses to occurrences of IRS
data losses, thefts, breaches and disclosures. We evaluated the internal controls by interviewing


4
  The IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 23
                         Some Taxpayers Were Not Appropriately Notified
                        When Their Personally Identifiable Information Was
                                    Inadvertently Disclosed



management and reviewing policies, reports, and procedures; selecting and comparing the
disclosure incidents identified on four systems used to process disclosure incidents; and
evaluating the response decision and timely notification of a statistical sample of 98 disclosure
incidents.




                                                                                           Page 24
                       Some Taxpayers Were Not Appropriately Notified
                      When Their Personally Identifiable Information Was
                                  Inadvertently Disclosed



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Lynn Faulkner, Lead Auditor
Jackie Forbus, Senior Auditor
Jerome Antoine, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                    Page 25
                      Some Taxpayers Were Not Appropriately Notified
                     When Their Personally Identifiable Information Was
                                 Inadvertently Disclosed



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Operations OS:CTO
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Director, Privacy, Information Protection, and Data Security OS:P
Chief Information Officer OS:CTO:CIO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Cybersecurity Operation OS:CTO:O
Director, Privacy and Information Protection OS:P:PIP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Taxpayer Correspondence, Wage and Investment Division SE:W:OTC
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Privacy, Information Protection, and Data Security OS:P
       Senior Operations Advisor, Wage and Investment Division SE:W:S



                                                                                 Page 26
                            Some Taxpayers Were Not Appropriately Notified
                           When Their Personally Identifiable Information Was
                                       Inadvertently Disclosed



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 653 taxpayer accounts affected1 (see page 6).

Methodology Used to Measure the Reported Benefit:
For the period October 1, 2008, to September 30, 2010, we reviewed a statistical sample of
98 incidents to determine whether the IRS accurately decided to notify the taxpayers that their
Personally Identifiable Information was inadvertently disclosed. Our review determined the
following:
    •   For 5 (5 percent) of the 98 decisions, the IRS did not notify the taxpayer their Personally
        Identifiable Information was disclosed because the IRS did not document or retain the
        necessary information to notify the affected taxpayer. Projected to the population of
        4,081 inadvertent disclosures processed in Fiscal Years 2009 and 2010, there may have
        been 204 incidents where the IRS acknowledged Personally Identifiable Information had
        been disclosed but the IRS did not notify the affected taxpayers.
    •   For 10 (10 percent) of the 98 incidents, the IRS did not notify the taxpayers that their tax
        account information was disclosed because IRS procedures did not include tax account
        information as Personally Identifiable Information. Projected to the population of
        4,081 inadvertent disclosures processed in Fiscal Years 2009 and 2010, there may have
        been 408 incidents where the IRS disclosed tax account information but the IRS did not
        notify the affected individuals.
    •   *************************************1**********************************
        *********************1******************. Projected to the population of
        4,081 inadvertent disclosures processed in Fiscal Years 2009 and 2010, there may have
        been 41 incidents where the IRS became aware that a taxpayer’s identity may have been
        stolen by an individual but the IRS did not notify the taxpayer.


1
 Our projections are conservative. Each incident may affect more than one taxpayer that may have had Personally
Identifiable Information disclosed but was not notified.
                                                                                                       Page 27
                             Some Taxpayers Were Not Appropriately Notified
                            When Their Personally Identifiable Information Was
                                        Inadvertently Disclosed



Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 815 disclosure records affected (see page 17).

Methodology Used to Measure the Reported Benefit:
We summed 812 incidents that were not transferred from the CSIRC2 portal to the Incident
Tracking System and 3 incidents that were not added to E-Trak System3 from the Incident
Tracking System.4 Each incident may affect more than one taxpayer that may have had
Personally Identifiable Information disclosed but the incident is not in the database for review.




2
  The CSIRC is the centralized reporting facility for all computer security privacy incidents.
3
  The E-Trak System is an off-the-shelf case-tracking tool used to respond to a public law.
4
  The Incident Tracking System provides an automated process to capture, process, and track incident data and
generate reports.
                                                                                                         Page 28
                                Some Taxpayers Were Not Appropriately Notified
                               When Their Personally Identifiable Information Was
                                           Inadvertently Disclosed



                                                                                                   Appendix V

    Internal Revenue Service Employee Instructions on
             Reporting Inadvertent Disclosures

IRS employees, who become aware of an inadvertent disclosure of sensitive information, or the
loss or theft of an information technology asset or hardcopy record or document containing
sensitive information, are required to report the incident within 1 hour to each of the following,
as applicable:
       •   His or her manager, in all instances.
       •   The Office of Taxpayer Correspondence, if the incident involves taxpayer
           correspondence, using the Servicewide Notice Information Program Erroneous Taxpayer
           Correspondence Reporting Form. The scope of this form has been expanded to include
           electronic communication like faxes, transcripts, and email messages. The Office of
           Taxpayer Correspondence will notify the CSIRC1 as necessary after an initial analysis of
           the incident. This procedure minimizes the potential for inaccurate, incomplete, and
           duplicate reporting of incidents to the CSIRC, lessens the operational impact of reporting
           an incident, and focuses resources on correcting the error to prevent additional
           breaches/losses.
       •   The CSIRC, if the incident does not involve taxpayer correspondence (for example, a
           verbal disclosure, lost laptop, data disk, or packages lost during shipment), using the
           Computer Security Incident Reporting Form or by calling 1-866-216-4809.
       •   The Treasury Inspector General for Tax Administration, if the incident involves the loss
           or theft of an information technology asset (e.g., computers, laptops, routers, printers,
           removable media, CD/DVD, flash drive, floppy) or hardcopy records/documents, at
           1-800-366-4484.
       •   The Modernization and Information Technology Services organization Enterprise
           Services Help Desk, if the incident involves the loss or theft of an information technology
           asset.




1
    The CSIRC is the centralized reporting facility for all computer security privacy incidents.
                                                                                                        Page 29
                          Some Taxpayers Were Not Appropriately Notified
                         When Their Personally Identifiable Information Was
                                     Inadvertently Disclosed



                                                                                       Appendix VI

    Flowchart of the Disclosure Notification Process




Source: IRS Incident Management Program. IM = Incident Management Program. PII = Personally Identifiable
Information. POC = Point of Contact. PIPDS = Privacy, Information Protection, and Data Security.
T/P = Taxpayer. UPS = United Parcel Service.




                                                                                                 Page 30
        Some Taxpayers Were Not Appropriately Notified
       When Their Personally Identifiable Information Was
                   Inadvertently Disclosed



                                                  Appendix VII

Management’s Response to the Draft Report




                                                            Page 31
 Some Taxpayers Were Not Appropriately Notified
When Their Personally Identifiable Information Was
            Inadvertently Disclosed




                                                     Page 32
 Some Taxpayers Were Not Appropriately Notified
When Their Personally Identifiable Information Was
            Inadvertently Disclosed




                                                     Page 33
 Some Taxpayers Were Not Appropriately Notified
When Their Personally Identifiable Information Was
            Inadvertently Disclosed




                                                     Page 34
 Some Taxpayers Were Not Appropriately Notified
When Their Personally Identifiable Information Was
            Inadvertently Disclosed




                                                     Page 35
